Audit Report



Return
    to the USDOJ/OIG Home Page




Office Of Community Oriented Policing Services Grants to The Merced County Sheriff's DepartmentMerced, California

GR-90-03-008


February 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Merced County Sheriff's Department (MCSD).  The purpose of the grants is to enhance community policing.  The MCSD was awarded $1,465,152 to hire 12 new deputy sheriffs and redeploy the equivalent of 1.4 existing full-time deputy sheriffs to community policing.
We found the MCSD to be in non-compliance with one COPS' grant requirement.  We reviewed the MCSD's compliance with seven essential grant conditions and found weaknesses in reimbursement requests.  As a result of the deficiency identified below, we question $132,944 in grant funds received.1

The MCSD was reimbursed more than the allowable federal share for the UHP I grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.